OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/DEMOCRATIC
REPUBLIC OF CONGO’S
EFFORTS TO MITIGATE
ENVIRONMENTAL IMPACT IN
ITS PROJECT PORTFOLIO
AUDIT REPORT NO. 7-660-10-009-P
JULY 21, 2010




DAKAR, SENEGAL
Office of Inspector General


July 21, 2010

MEMORANDUM

TO:       	         USAID/DRC Mission Director, Stephen Haykin

FROM: 	             Regional Inspector General, Gerard Custer /s/

SUBJECT:	           Audit of USAID/Democratic Republic of Congo’s Efforts to Mitigate
                    Environmental Impact in Its Project Portfolio (Audit Report No. 7-660-10-009-P)


This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in appendix II.

The report includes six recommendations for your action. Based on actions taken by the
mission and supporting documentation provided, management decisions have been reached on
all the recommendations. Please provide the Audit Performance and Compliance Division in
the USAID Office of the Chief Financial Officer (M/CFO/APC) with the necessary documentation
to achieve final action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 5 


     Environmental Assessment Requirements
     Should Be Incorporated Into Solicitations 

     and Awards ................................................................................................................ 5 


     Mission Environmental Officer 

     Appointment Memorandum
     Needs To Be Updated................................................................................................. 6 


     Process of Ensuring Environmental

     Compliance Needs To Be Updated............................................................................. 7 


     Environmental Compliance
     Should Be Reported Annually ................................................................................... 10 


Evaluation of Management Comments ....................................................................... 12 


Appendix I – Scope and Methodology ........................................................................ 13 


Appendix II – Management Comments ....................................................................... 15 


Appendix III – Funding Levels for Projects Reviewed............................................... 17

SUMMARY OF RESULTS

Adverse environmental effects stemming from economic development are a fundamental
concern in the developing world. As USAID-funded programs are implemented across
the globe, it is imperative that the environmental impacts of those programs be carefully
considered and mitigated to the extent possible. To help ensure adequate environmental
oversight, USAID implements Title 22, part 216 of the Code of Federal Regulations,
“Environmental Procedures” (22 CFR 216 [2009]). These procedures ensure that
environmental considerations are integrated into the decisionmaking process for all
USAID-funded projects, programs, and activities.

22 CFR 216 (1) assigns responsibilities within USAID for assessing the foreseeable
environmental impacts of USAID’s actions, (2) requires that environmental safeguards
be incorporated into program planning and design, and (3) directs that programs be
continually monitored and modified when necessary to mitigate environmental impact.
In addition, it is USAID policy to assist host countries with strengthening their capability
to evaluate potential environmental effects of proposed projects and to develop effective
environmental programs. USAID’s Automated Directives System (ADS) 204,
“Environmental Procedures,” provides policy and directives and required procedures on
how to apply 22 CFR 216.

Implementation of 22 CFR 216 is coordinated and enforced by a team of professional
environmental staff led by the Agency environmental coordinator and a network of
environmental advisors at the bureau, regional, and mission levels. While the
environmental officers provide support to program staff, ultimately it is the activity
managers’ responsibility to continually monitor and evaluate the environmental impact of
USAID activities. If properly implemented throughout the project cycle, 22 CFR 216 will
result in environmentally sound activities and the promotion of environmental policies
consistent with USAID’s development mandate.

The USAID mission in the Democratic Republic of Congo (DRC) was selected as one
site in a series of audits to be conducted at selected missions worldwide to evaluate the
implementation of 22 CFR 216. With a population currently estimated at 71 million, DRC
is one of the largest countries in Africa and has by far the largest surface area of intact
tropical rain forest. The country’s natural environment is severely threatened. Some of
the most serious threats to the natural environment are occurring in the areas of highest
biodiversity value. Poverty combined with population growth, migration, armed conflict,
and political and institutional collapse are the underlying causes of environmental
degradation in the country.1




1
  The Wildlife Conservation Society, Democratic Republic of Congo Environmental Analysis—
Final Report, December 2003.


                                           1

                  Figure 1: Map of Democratic Republic of Congo




The USAID/DRC mission funds a broad array of activities with varying levels of potential
environmental impact. As shown in appendix III, the audit focused on 4 out of 77
projects active in 2009. The four projects were awarded a total of $133,930,935, or 23
percent of the mission’s portfolio.

The Initial Environmental Examination is the first step in USAID’s environmental
assessment process. The Initial Environmental Examination is a document that details
the effects of a proposed action on the environment. It evaluates the program activities
with respect to environmental impact potential and establishes mitigation actions,
including the monitoring and evaluation required from project design through
implementation. The Initial Environmental Examination also determines the threshold
decision, which is a formal agency assessment that determines whether a proposed
agency action is a major action significantly affecting the environment. Threshold
decisions are divided into the following categories:

      Categorical Exclusion (no risk of environmental impact)
      Negative Determination without Conditions (no impacts)
      Negative Determination with Conditions (some risk of environmental impact)
      Positive Determination (significant risk of environmental impact)
      Deferral (activity is not developed enough to make a determination)

Mission staff are responsible for developing the Initial Environmental Examinations. If
sufficient detail is available at the time of its development, this document also
establishes environmental baseline data to be collected before activities commence.

Implementing partners should complete Environmental Review documents when specific
project locations and activities are further defined after the contract is awarded and more
detailed analysis is needed. These documents can include a variety of assessments,



                                            2

but they are meant to determine the scope and extent of additional environmental
evaluation, mitigation, and monitoring necessary to fulfill federal environmental
requirements.

Environmental Mitigation and Monitoring Plans detail the measures required by the Initial
Environmental Examination or the Environmental Review documents that will be
implemented to lessen (or mitigate) any potential environmental impacts of an activity.
These plans determine indicators or criteria for monitoring their implementation and
effectiveness, and lay out who is responsible for mitigation and monitoring, as well as
the frequency with which mitigation and monitoring data will be reported to mission staff.

The Regional Inspector General/Dakar (RIG/Dakar) conducted this audit to answer the
following question:

	 Is USAID/Democratic Republic of Congo achieving its goals and objectives to
   mitigate environmental impact?

Based on the audit team’s review of four projects, USAID/DRC is achieving its goals and
objectives related to mitigating environmental impacts. The audit did not identify any
significant adverse impacts as a direct result of USAID activities. This is partly because
the mission avoids projects with components that normally have a significant effect on
the environment. For the most part, activities implemented by USAID/DRC have a low
risk of negative environmental impact, and the mission and its partners have developed
specific measures to minimize and compensate for adverse effects of these activities.

Although USAID/DRC has taken steps to minimize adverse effects of its activities on the
environment, the audit team found pervasive environmental management compliance
deficiencies. USAID/DRC (1) did not adequately incorporate Initial Environmental
Examination assessment requirements into solicitations and awards, (2) has not updated
the appointment memorandum for the mission’s environmental officer to include
important responsibilities, (3) needs to strengthen the process for ensuring
environmental compliance, and (4) needs to report on environmental compliance
annually (see pages 5 to 11). This audit recommends that USAID/DRC:

   	 Require activity managers to include specific environmental assessment
      requirements from the Initial Environmental Examination in the solicitation
      documents, and include environmental compliance expertise in the evaluation
      criteria for selecting implementing partners (page 6).

   	 Require implementing partners to respond to environmental assessment
      requirements in their proposal, detailing staff and budget necessary to address
      environmental assessment and monitoring concerns (page 6).

   	 Require activity managers to ensure that environmental assessment and
      monitoring requirements are included in agreements and contracts signed by
      implementing partners (page 6).

   	 Revise and update its Mission Environmental Officer Appointment Memorandum
      to include the recommended language specified in the ADS 204 Additional Help
      (page 7).



                                            3

   	 Ensure that environmental compliance issues are considered at all stages of
      projects in its portfolio, and document these processes in a mission order (page
      10).

   	 Provide periodic life-of-project environmental compliance training for mission staff
      and implementing partners (page 10).

Detailed findings appear in the following section. The audit’s scope and methodology
are described in appendix I.

USAID/DRC agreed with all but one of the recommendations in the draft report.
RIG/Dakar carefully reviewed and considered management’s comments and deleted this
recommendation. Based on actions taken by the mission and supporting documentation
provided, management decisions have been reached on all the recommendations.
USAID/DRC’s comments are included in appendix II.




                                           4

AUDIT FINDINGS

Environmental Assessment
Requirements Should Be Incorporated
Into Solicitations and Awards
Automated Directives System (ADS) 204.3.4.a and 303.3.6.3.e require incorporating the
environmental assessment requirements outlined in the environmental evaluation
documents into implementation instruments for programs, projects, activities, or
amendments. ADS 204.3.8 states that strategic objective teams and activity managers
must consider the environmental findings and recommendations made in the approved
environmental evaluation documents when designing and approving funding for a
program or activity. The contracting officer or agreement officer must incorporate these
requirements into any contracts, grants, cooperative agreements, or other mechanisms
used to implement the activity.

The process of ensuring proper environmental oversight for USAID programs begins
during the program design phase. Potential impacts of a proposed action on the
environment and mitigation and monitoring requirements should be determined up front
so that responsibilities of project implementers are explicitly enumerated in the
solicitations and subsequent awards prior to project implementation. According to
USAID bureau environmental staff in Washington, D.C., the Initial Environmental
Examination (IEE) should be completed prior to the USAID solicitation so that conditions
can be included in the solicitation and bidders can incorporate associated cost and
staffing in their proposals. In instances where the IEE cannot be completed prior to the
solicitation, the implementing partners should be informed of the requirements, and the
requirements should be included in the agreement and contracting documents.

The audit found that USAID/Democratic Republic of Congo (USAID/DRC) did not
adequately incorporate IEE assessment requirements into solicitations and awards, and
the solicitations did not include environmental compliance expertise of the implementing
partners as recommended for partner selection. In the four projects audited, none of the
agreements had fully incorporated the requirements outlined in the IEE. For example,
(1) the Education Development Center Inc. and the Program for Appropriate Technology
in Health agreements did not include the IEE assessment requirements or the
environmental compliance expertise of the implementing partner, (2) the International
Institute of Tropical Agriculture contract modifications did not contain compliance
language (the audit team reviewed only the contract modifications because the original
contract was maintained in Washington and had been signed before the environmental
requirements were in effect), and (3) the Development Alternatives Inc. agreement
contained some of the required language about environmental compliance, but the
conditions listed in the IEE were not included in the agreement.

The USAID solicitation documents establish the criteria for evaluating the proposals
received from potential implementing partners. The criteria identify the significant factors
that the bidders should address in their proposals and set the standard against which all
proposals will be evaluated. None of the four USAID/DRC solicitations audited included
evaluation criteria related to environmental compliance.



                                             5

Environmental compliance evaluation criteria were not included because environmental
considerations were not taken into account during the planning phase of the activities.
According to the mission environmental officer (MEO), most of the required
environmental compliance language was new to the agreement officer’s technical
representative (AOTR) and the regional contracting officer, and they were not aware of
the language requirements. Additionally, the AOTR designation letter does not include
environmental compliance requirements as an enumerated responsibility. Another factor
contributing to the lack of required language in the agreements was poor coordination
among the regional contracting officer, the MEO, and the AOTR related to environmental
compliance.

If these elements are not incorporated into the solicitations and awards, implementing
partners may be unaware of environmental requirements that could affect staffing,
budget, and program design. To strengthen USAID/DRC environmental compliance,
this audit makes the following recommendations:

   Recommendation 1: We recommend that USAID/Democratic Republic of Congo
   establish and implement procedures to require activity managers to provide the
   agreement officer or contracting officer the specific environmental assessment
   requirements from the Initial Environmental Examination to be included in the
   solicitation documents, and include environmental compliance expertise in the
   evaluation criteria for selecting implementing partners.

   Recommendation 2: We recommend that USAID/Democratic Republic of Congo
   establish and implement procedures to require implementing partners to respond
   to environmental assessment requirements in their proposal, detailing staff and
   budget necessary to address environmental assessment and monitoring
   concerns associated with the project.

   Recommendation 3: We recommend that USAID/Democratic Republic of Congo
   require activity managers to follow up with the Regional Contracting Officer to
   ensure that environment assessment and monitoring requirements are included
   in agreements and contracts signed by implementing partners.

Mission Environmental Officer
Appointment Memorandum
Needs To Be Updated
USAID/DRC issued a mission order dated January 31, 2006, to designate the
agricultural development officer as the mission environmental officer. Although the
mission order clearly assigned responsibility for ensuring compliance with 22 CFR 216 to
Strategic Objective teams, it did not incorporate all of the recommended language
indicated in the ADS 204 Additional Help, “Recommended Mission Environmental Officer
Appointment Memorandum.”

For example, the recommended language specifically stated, “all Mission 22 CFR 216
documents must be cleared by the MEO (or in his/her absence, by the Deputy MEO)
prior to forwarding to the Mission Director for his/her concurrence and transmittal to the
Bureau Environmental Officer in AID/Washington. This includes Initial Environmental


                                            6

Examinations (IEE), Requests for Categorical Exclusions and Deferrals, Scoping
Statements, Environmental Assessments (EAs), Environmental Impact Statements,
Amendments to any of these documents or other 22 CFR 216 determinations. (After
MEO clearance and prior to submission to the Mission Director, all 22 CFR 216
documents must be cleared by the Regional Environmental Advisor and the Regional
Legal Advisor).”

In addition, ADS Section 204.3.5 specifies, “Each Mission Director is encouraged to
appoint a Mission Environmental Officer (MEO) in writing. When staffing patterns
permit, the Mission Director also may appoint a Deputy Mission Environmental Officer to
ensure timely operations in Missions where the MEO is absent, or when a Mission’s
portfolio is of such size that a Mission Director judges that one or more Deputy MEOs
are needed to address their Mission’s workload.”

The mission order did not include the following:

      Designation of a deputy mission environmental officer (although one has been
       informally assigned)
      Requirement that all mission 22 CFR 216 documents (including IEEs, EAs,
       environmental impact statements, amendments to any of these documents, or
       other 22 CFR 216 determinations) be cleared by certain officers
      Appointment of the MEO to serve as an advisory member of each team in the
       operating unit

This occurred because environmental compliance requirements were new to the
mission, and mission staff were not fully aware of all the new requirements. Also, the
MEO has been at post for 9 months and was focused on other priorities.

An MEO appointment memorandum is an important document that clearly defines the
responsibilities of the MEO in ensuring mission-wide environmental compliance. Without
an MEO appointment memo that fully conforms to best practice standards and
specifically identifies the process for handling environmental issues, the mission may be
at risk of not handling environmental issues properly. To correct this issue, this audit
makes the following recommendation:

   Recommendation 4: We recommend that USAID/Democratic Republic of Congo
   revise and update its Mission Environmental Officer appointment memorandum
   to include the recommended language specified in the ADS 204 Additional Help,
   “Recommended Mission Environmental Officer Appointment Memorandum.”

Process of Ensuring Environmental
Compliance Needs To Be Updated
According to ADS 204, “Environmental sustainability is integral to USAID’s overall goal,
and therefore must be mainstreamed into all activities to achieve optimal results, to
avoid inadvertent harm to the people we are trying to help, and to prevent wasting
taxpayer dollars. To meet this goal, USAID incorporates environmental considerations
into results-based planning, achieving, and assessing and learning.”




                                            7

ADS 204.2 states that Strategic Objective and Program Support Objective teams,
activity managers, and cognizant technical officers are responsible for ensuring full
compliance with 22 CFR 216. According to ADS 204.2, missions are responsible for
providing the staff and financial resources to their management units to implement the
approved strategies consistent with the Agency’s environmental procedures. Missions
are accountable for meeting these requirements and continuously monitoring their
results. Each mission and Strategic Objective team must develop effective essential
environmental review procedures consistent with its strategic and operational plans to—

   	 Ensure that activity managers have the resources to complete all environmental
      work required under 22 CFR 216 before funds are obligated
   	 Once funds are obligated, ensure that activity managers, contracting officer's
      technical representatives (COTRs), and AOTRs have the resources to adaptively
      manage environmental compliance during implementation
   	 Ensure effective collaboration with the MEO during all strategic objective designs
      and approvals to create a system and adequate resources to ensure effective
      implementation of the requirements

COTRs/AOTRs, Strategic Objective teams, and activity managers are responsible for
the design, monitoring, and modification of all programs, projects, activities,
amendments, and Activity Approval Documents in order to ensure that the
environmental consequences of all actions taken by USAID and the host country are
considered and that appropriate environmental safeguards are adopted.

Also, ADS 204 Additional Help, “Environmental Compliance: Language for Use in
Solicitations and Awards,” states that partners shall prepare an environmental mitigation
and monitoring plan (EMMP) or project mitigation and monitoring plan describing in
specific terms how they will implement all IEE and/or EA conditions that apply to
proposed project activities within the scope of the award. The EMMP or project
mitigation and monitoring plan shall include monitoring the implementation of the
conditions and their effectiveness.

Although the mission has taken steps to comply with 22 CFR 216, such as developing
IEEs, appointing an MEO, and providing some training on environmental compliance,
the mission does not have a management system in place to fully meet the regulation’s
requirements. For example, the mission does not continuously monitor environmental
impact or issues for all its activities. A determination is made prior to project
implementation (which is the development of the IEEs), but no followup or subsidiary
reviews were conducted during project implementation to update the IEEs.

During site visits, the audit team noted two instances of environmental noncompliance
due to the lack of monitoring and followup of environmental issues:

   	 During a site visit to the Centre de Sante de Matadi in the Bas-Congo, the audit
      team observed large cracks in the wall of an incinerator and some stray syringes
      that had fallen from the incinerator which had to be put back for burning. The
      incinerator therefore was not operating effectively.

   	 During a site visit to Medeki, the audit team observed an uncovered drainage pit
      containing cassava water accessible to animals and humans and unsecured



                                           8

       drainage trenches. Because cassava water is poisonous to humans and
       animals, access to the drainage area should be secured.




Picture of a cracked incinerator taken at the Centre De Sante de Matadi by an OIG auditor
on April 21, 2010.

Furthermore, the audit team determined that the mission—

   1. 	Does not have a documented process in place for submitting, reviewing, and
        tracking environmental compliance documents to ensure that issues are timely
        identified and resolved
   2. 	 Does not have a system in place to track and record the status of environmental
        compliance issues
   3. 	 Has not incorporated environmental compliance into its portfolio reviews
   4. 	 Has not coordinated with the host country on environmental issues
   5. 	 Has not developed, budgeted, and implemented EMMP for activities operating
        under negative determinations with conditions
   6. 	Does not have a systematic process for ensuring that partners report on
        environmental compliance in their progress reports
   7. 	 Does not have a system in place for ensuring that AOTRs/COTRs systematically
        verify environmental compliance during site visits

This occurred because most AOTRs/COTRs, implementing partners, and subpartners
were not aware of their environmental compliance responsibilities. For example, all four
USAID partners interviewed were unaware that they were responsible for preparing an
environmental analysis of their activities and submitting it to USAID as part of their
environmental compliance documentation.         Neither the AOTRs/COTRs nor the




                                           9

implementing partners were aware that the environmental analysis was critical to the
development of the IEE.

Although the AOTRs/COTRs and implementing partners were aware to some extent that
their activities should not damage the environment, they were not aware of their
responsibility to ensure full compliance with 22 CFR 216 and did not commit the
appropriate level of resources to allow them to properly monitor their activities. Also, the
implementing partners had not been trained on how to develop an EMMP. The mission
did not take the necessary steps to ensure that resources were formally committed to
environmental compliance and reviews. The MEO was also engaged in other priorities
and did not devote adequate time to environmental compliance issues.

As a result of not having an internal management system to fully meet the 22 CFR 216
requirements, the mission’s activities may be less effective and may not achieve their
intended results.     In addition, inadequate processes might result in new high-
environmental-impact activities being conducted without adequate safeguards, which
could negatively reflect on USAID and the U.S. Government.

The mission acknowledged the problems and has taken steps to hire a natural resources
management specialist to support the MEO in carrying out his environmental compliance
responsibilities. However, to improve the mission’s processes regarding environmental
compliance, this audit makes the following recommendations:

   Recommendation 5: We recommend that USAID/Democratic Republic of Congo
   develop and implement processes that require environmental compliance issues
   are considered at all stages of projects in its portfolio, and document these
   processes in a Mission Order.

   Recommendation 6: We recommend that USAID/Democratic Republic of Congo
   develop, document, and implement a plan of action to provide periodic life-of-
   project environmental compliance training for mission staff and implementing
   partners.

Environmental Compliance
Should Be Reported Annually
ADS 204.3.3 states, “Each USAID Operating Unit must prepare and submit an
environmental section as an integral part of its Annual Report that is submitted to
Washington.” The section consists of two parts:

   a. 	The first part must include a discussion of implementation of mitigation
       measures, monitoring provisions, or other implementation requirements agreed
       to under 22 CFR 216 during activity design. It must also identify any cases of
       noncompliance, and for such noncompliance situations, identify corrective steps
       that will be taken.

   b. 	 The second part must be an illustrative schedule of upcoming activities that may
        require 22 CFR 216 review.

In addition, ADS 203.3.8.5 requires that missions include a brief summary sentence of



                                            10 

the status of compliance with 22 CFR 216 in their Performance Summary and must
complete the Supplementary Reference: Environmental Compliance template in the
Foreign Assistance Coordination and Tracking System (FACTS).

In reviewing USAID/DRC’s Performance Plan and Report (its annual report submitted to
Washington) for fiscal years (FYs) 2008 and 2009, the audit team noted that the mission
had not included a summary of the status of compliance with 22 CFR 216 in the FY 2009
report. In fact, there was no mention of compliance with 22 CFR 216 as required. Also,
the environmental template had not been completed in FACTS. For FY 2008, the
summary of the status of compliance with 22 CFR 216 was incomplete. The mission
provided an attachment on environmental compliance in addition to the FY 2008 report,
but the attachment was incomplete and did not include a discussion of implementation of
mitigation measures, monitoring provisions, or other implementation requirements
required under 22 CFR 216.

This occurred because the mission received guidance from Washington not to report on
environmental issues in FY 2009. The MEO arrived at the mission 9 months ago and
was not involved in the FYs 2008 and 2009 reporting process.

In addition to being a legal requirement, adequate review of environmental
considerations optimizes development results and ensures wise investment of taxpayer
money.      Reporting on environmental issues and effective implementation of
environmental laws, regulations, and procedures would help ensure that the
development activities USAID undertakes not only are economically sustainable but also
protect the environment.

Based on comments received from the mission on the draft audit report, the audit
recommendation has been deleted from the final audit report. This issue will be
discussed further with USAID/Washington officials as part of a worldwide audit effort.




                                          11 

EVALUATION OF
MANAGEMENT COMMENTS
USAID/Democratic Republic of Congo agreed with all but one of the recommendations in
the draft report. Based on a careful review and consideration of management’s
comments, the Regional Inspector General/Dakar has deleted this recommendation.
The evaluation of management comments is summarized below.

For recommendations 1 and 2, USAID/Democratic Republic of Congo agreed with the
recommendations and will issue a formal detailed mission order addressing the
recommendations to all agreement officers’ technical representatives and contracting
officers’ technical representatives by October 31, 2010. Accordingly, a management
decision has been reached for these recommendations.

For recommendation 3, USAID/Democratic Republic of Congo agreed with the
recommendation and will ensure that appropriate clauses are included in the
agreements and contracts by October 31, 2010. Accordingly, a management decision
has been reached for this recommendation.

For recommendation 4, USAID/Democratic Republic of Congo agreed with the
recommendation and will revise and update its Mission Environment Officer Appointment
Memorandum by October 31, 2010. Accordingly, a management decision has been
reached for this recommendation.

For recommendation 5, USAID/Democratic Republic of Congo agreed with the
recommendation and will develop and implement the processes and document them in a
Mission Order by October 31, 2010. Accordingly, a management decision has been
reached for this recommendation.

For recommendation 6, USAID/Democratic Republic of Congo agreed with the
recommendation and will hold the training by March 31, 2011. Accordingly, a
management decision has been reached for this recommendation.




                                         12 

                                                                            APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar (RIG/Dakar) conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions, based on our audit objective.

The objective of this audit was to determine if USAID/Democratic Republic of Congo
(DRC) is achieving its goals and objectives to mitigate environmental concerns
throughout the project life cycle. Audit fieldwork was conducted at USAID/DRC from
April 12 to 30, 2010. The audit covered projects and activities implemented as of
October 1, 2009; however, we considered it appropriate to incorporate information
pertaining to current contracts and original environmental documentation for some
projects that began prior to October 2009.

In planning and performing the audit, we assessed USAID/DRC’s controls regarding its
efforts to mitigate environmental impact. Specifically, we obtained an understanding of
and evaluated (1) environmental documentation, including Initial Environmental
Examinations; (2) contract and agreement documents; (3) program documents, such as
work plans, quarterly reports, and monitoring plans; (4) best management practices; and
(5) the monitoring of and interaction with implementing partners by contracting officer’s
technical representatives/agreement officer’s technical representatives (activity
managers). We interviewed key USAID/DRC environmental staff and implementing
partners. We completed fieldwork at USAID/DRC in Kinshasa and visited four project
sites in the province of Madati.

The audit team reviewed four projects to answer the audit objective. The total amount
awarded for the projects reviewed is approximately $134 million, or 23 percent of the
mission’s portfolio.

Methodology
To answer our audit objective, we met with key USAID environmental personnel, staff at
USAID/DRC, and implementing partners.           We reviewed relevant documentation
provided by USAID/DRC and implementing partners. We also reviewed applicable
policies, best practices, and guidelines pertaining to USAID, specifically the Code of
Federal Regulations (22 CFR 216, “Environmental Procedures”) and Automated
Directives System 204.

To assess USAID/DRC’s efforts to mitigate environmental impact, we reviewed relevant
documentation provided by the mission and implementing partners. We assessed
implementing partners’ monitoring practices on environmental impact by interviewing
officials of these organizations and reviewing work plans, quarterly reports, and other
project documents. We also determined the level of monitoring provided by activity



                                         13 

                                                                             APPENDIX I 



managers and USAID environmental staff over implementing partners through interviews
and by reviewing relevant documentation, including available site visit reports.

In reviewing relevant documentation provided by the mission and implementing partners,
we evaluated contract and agreement documents for corresponding environmental
compliance language. We compared these documents with work and monitoring plans,
quarterly reports, and other project documents.

We verified through interviews with mission personnel, Agency environmental staff, and
implementing partners, or by reviewing relevant documentation prepared by the mission
and implementing partners that no significant environmental impact exists. Also, we
conducted four site visits in DRC to further confirm that USAID/DRC’s activities have not
resulted in significant impact to the environment.

As of September 30, 2009, there were 77 active projects at USAID/DRC with a total
amount awarded of approximately $571 million. We judgmentally selected four projects
for the audit (all four projects selected were categorized as negative determination with
conditions since there were no active projects with positive determination). These four
projects represented the mission’s diverse project portfolio and captured consideration of
environmental concerns in a variety of program areas, including health, education, good
governance, and economic growth/agriculture. It was also important to review projects
at varying stages of implementation to enable observation of mission environmental
procedures from project design to closeout. Additional selection criteria included
likelihood of causing significant environmental impact and environmental mitigation and
monitoring requirements. The results from the sample cannot be projected to the
universe of all activities on a statistical basis. However, we believe that our work
provides a reasonable basis for our conclusions.




                                           14 

                                                                           APPENDIX II 




MANAGEMENT COMMENTS 


To            Regional Inspector General/Dakar, Gerard Custer

From:         USAID/DRC Mission Director, Stephen M. Haykin

Date:         July 7, 2010

Subject:      Audit of USAID/Democratic Republic of Congo’s Efforts to Mitigate
              Environmental Impact in Its Project Portfolio (Report No. 7-660-10-00X-P)


The USAID/DRC Mission would like to thank the RIG/Dakar audit team for its work in the
DRC and recommendations for improving the efforts to mitigate environment impact in
our project portfolio. The Mission agrees with the recommendations and we find them to
be reasonable and in line with the discussions we had during the evaluation out-briefing
meeting. The audit findings are overall straightforward and helpful for our Mission.
USAID/DRC has already started using the proposed environmental language for use in
solicitations and awards. The Mission submits the following specific comments on the
RIG Audit Report findings and conclusions.

Comments on Recommendations

Recommendation No. 1: We recommend that USAID/Democratic Republic of Congo
establish and implement procedures to require activity managers to provide the
agreement officer or contracting officer the specific environmental assessment
requirements from the Initial Environmental Examination to be included in the
solicitation documents, and include environmental compliance expertise in the
evaluation criteria for selecting implementing partners.

Recommendation No. 2: We recommend that USAID/Democratic Republic of Congo
establish and implement procedures to require implementing partners to respond to
environmental assessment requirements in their proposal, detailing staff and budget
necessary to address environmental assessment and monitoring concerns
associated with the project.

Comments: The Mission agrees with these recommendations (1, and 2 above). It will
issue a formal detailed mission order to guide all Agreement Officer Technical
Representatives (AOTRs) and Contracting Officer Technical Representatives
(COTRs) in this regard by October 31, 2010 with Cc to RIG office.

Recommendation No. 3: We recommend that USAID/Democratic Republic of Congo
establish and implement procedures to require activity managers to include
environmental assessment and monitoring requirements in agreements and
contracts signed by implementing partners.



                                          15 

                                                                          APPENDIX II 



Comments: Mission agrees in principle with these recommendations but notes that it
is the role of the Regional Contracting Officer and not the Mission to ensure that
appropriate clauses are in agreements and contracts.

Recommendation No. 4: We recommend that USAID/Democratic Republic of Congo
revise and update its Mission Environmental Officer Appointment Memorandum to
include the recommended language specified in the ADS 204 Additional Help,
“Recommended Mission Environmental Officer Appointment Memorandum.”

Comments: The Mission agrees with this recommendation. By October 31, 2010 it will
revise and update its Mission Environment Officer Appointment Memorandum
accordingly and a copy of the revised memorandum will be shared with RIG office.

Recommendation No. 5: We recommend that USAID/Democratic Republic of Congo
develop and implement processes that require environmental compliance issues are
considered at all stages of projects in its portfolio, and document these processes in a
Mission Order.

Comments: The Mission agrees with this recommendation. It will develop and implement
the processes and document them in a Mission Order by October 31, 2010 with a copy
to the RIG office.

Recommendation No. 6: We recommend that USAID/Democratic Republic of Congo
develop, document, and implement a plan of action to provide periodic life-of-project
environmental compliance trainings for mission staff and implementing partners.

Comments: The Mission agrees with this recommendation. Also, taking into
consideration the mission’s limited capacity and environmental expertise on
environmental impact assessment, we cannot commit ourselves for more than one
training session every two years. The Mission will work with the BEO in Nairobi to hold
the next training by March 31, 2011.

Recommendation No. 7: We recommend that USAID/Democratic Republic of Congo
develop, document, and implement an action plan to ensure that required environmental
issues are properly reported in the fiscal year 2010 Annual Report.

Comments: The Mission does not submit annual report to Washington anymore instead
the PPR, the MSP and the OP. None of these has a requirement to report on
environmental compliance.

The mission would recommend that RIG check with Washington to Update the ADS
204.3.3 and to include provision in the reporting guidelines for MSP or PPR or OP for
environmental compliance.




                                          16 

                                                                      APPENDIX III


                   Funding Levels for Projects Reviewed

Activity Name                                                     Awarded Amount


Integrated HIV/AIDS Prevention, Care, and Treatment Service         $47,452,167
Delivery Program

Emergency Response to the Outbreak of Cassava Mosaic Disease in     $10,227,000
the DRC

Programme de Bonne Gouvernance                                      $36,251,768

Improving the Quality of Primary Education in the DRC               $40,000,000


TOTAL                                                              $133,930,935 





                                            17 

U.S. Agency for International Development 

        Office of Inspector General 

       1300 Pennsylvania Ave., NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
